                                            ~\. s£cv
                                           (j          :-t..
                                          ~V~1
                                           ?l1'usA'\\:
                                          ~     IIIIII1 ~~
                                              ~lsTV

                                 SOCIAL          SECURITY
                              Office of the Inspector General

MEMORANDUM

Date:     March 30, 2001                                                            Refer   To'




To        Larry G. Massanari
          Acting Commissioner
            of Social Security

From      Inspector General

Subject   Review of the Social Security Administration's Organizational
          Capacity to Monitor and Plan for Customer Service Initiatives (A-O2-00-20020)

The attached final report presents the results of our audit. This audit was initiated in
response to a request from the Chairman of the Senate Special Committee on Aging, to
assess the effectiveness of the Market Measurement Program and identify any other
efforts to improve customer service that should be implemented.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                               James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



            REVIEW OF THE

  SOCIAL SECURITY ADMINISTRATION’S

    ORGANIZATIONAL CAPACITY TO

   MONITOR AND PLAN FOR CUSTOMER

         SERVICE INITIATIVES


    March 2001     A-02-00-20020




 AUDIT REPORT

                                             Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                            Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:


   � Independence to determine what reviews to perform.

   � Access to all information necessary for the reviews.

   � Authority to publish findings and recommendations based on the reviews.


                                              Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.




SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   i
                                          Executive Summary
OBJECTIVE

The objective of the audit, initiated in response to a request from the Chairman of the
Senate Special Committee on Aging, was to assess the effectiveness of the Market
Measurement Program (MMP) and identify any other efforts to improve customer
service that should be implemented.

BACKGROUND

The Social Security Administration (SSA) has historically collected information on its
customers’ perception of the service it provides. Over the last few years, these efforts
were criticized as being fragmented, untimely, and uncoordinated. As a result, in 1996,
SSA contracted with the Pacific Consulting Group (PCG) to assess SSA’s market
research program. PCG recommended a comprehensive program of data collection
and reporting mechanisms that would provide an integrated market measurement
system. The Commissioner, endorsing this approach, approved the MMP in
February 1998. MMP encompasses a variety of data collection activities that are
intended to provide SSA with the information it needs to fully understand the
expectations and level of satisfaction of its total market—customers, employees, and
stakeholders.

RESULTS OF REVIEW
MMP represents a comprehensive and coordinated program of data collection,
analyses, and reporting that should assist SSA in identifying customer expectations and
monitoring service delivery more effectively. While MMP addresses major weaknesses
previously reported in SSA’s customer service monitoring, we believe that additional
opportunities exist for MMP to more effectively collect and use information. Additionally,
phases of MMP implementation have slipped from scheduled timeframes and close
monitoring will be needed to ensure that the future schedule is maintained. Also, SSA
made operational changes in response to feedback from MMP activities and additional
opportunities for changes continue to exist.

CONCLUSIONS AND RECOMMENDATIONS
MMP provides a mechanism that should allow SSA to better plan, implement, and
monitor service delivery. Information received during focus groups will assist SSA in
identifying the level of service that customers desire. Additionally, feedback collected
during interaction tracking will provide SSA information on the level of customer
satisfaction with its service. Further, MMP will only be effective if SSA uses the
information collected to respond timely to customer expectations and the need for


SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   i
service improvements. To ensure the most effective use of customer service
information collected, we recommend that SSA:

•	 Target specific groups of recipients receiving SSA notices through focus groups and
   interaction tracking.

•	 Encourage the uniform use of customer comment cards by field offices (FO),
   teleservice centers, and hearings offices.

•	 Revise the customer comment card for FOs to determine whether the customer had
   an appointment.

•	 Centralize and analyze customer feedback received through comment cards to
   identify any systemic service delivery issues that may need to be addressed.

•	 Evaluate whether, and the extent to which, the Talking and Listening to Customers
   (TLC) system may duplicate comment cards.

•	 Coordinate regional and local customer service studies and the central analysis of
   their results to permit identification of systemic issues.

•	 Accelerate implementation of MMP phases to attain scheduled data collections and
   analysis and closely monitor implementation of MMP phases to limit any further
   delays.

•	 Conduct a more in-depth analysis of operational data and customer satisfaction
   information to ensure that customer expectations, operational data, Agency
   performance and Vision 2010 goals are consistent.

AGENCY COMMENTS
SSA agreed with six of our recommendations and disagreed with two. The full text of
SSA’s comments is included in Appendix B.

•	 SSA did not agree with recommendation 2 “encourage the uniform use of customer
   cards by field offices, teleservice centers, and hearings offices.” SSA believes that
   local managers should have the discretion to use comment cards in the most
   efficient and effective manner they perceive because the card is designed to inform
   managers about their local service.

•	 SSA also disagreed with recommendation 4 “centralize and analyze customer
   feedback received through comment cards to identify any systemic service delivery
   issues that may need to be addressed.” SSA’s rationale is that the comment card is
   designed to monitor service at the local level, and that the various MMP data
   collection activities, as well as the TLC system, will provide centralized information to
   allow identification of service delivery issues at the national level.


SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   ii
SSA responded that the information on regional survey activity may be dated, but
indicated that recently completed regional surveys would be input into the MMP
Clearinghouse so that the data can be compared to other customer data. In addition,
SSA reported that an employee would be on detail to analyze the Clearinghouse data
for service and systemic issues and to monitor any regional activity.

In its response, SSA provided technical comments that were incorporated in this final
report, as appropriate.

OIG RESPONSE
We are pleased that SSA agreed with most of our recommendations, and has, or plans
to, implement most of them. We believe that activity conducted to date under the MMP
and in the pilot TLC sites, along with action in response to our recommendations, will
help ensure that SSA is effectively and efficiently collecting, analyzing, and using data
on customer expectation and satisfaction.

However, concerning the use of comment cards, we acknowledge the cards’ primary
function to provide feedback to managers on the quality of local service, we also believe
that the usefulness of the cards can be enhanced through uniform use. Scientific and
consistent distribution methodologies would provide for the collection of the most
accurate and efficient information for managers to use in improving service.

As we have previously reported, we continue to believe that the comment card can be
an inexpensive and effective tool at both the local and national levels to obtain customer
satisfaction information and to identify systemic service delivery issues. Additionally,
until the TLC is fully implemented, SSA lacks a centralized customer complaint system
and mechanism to analyze all complaints. The centralized analysis of comment cards
could fill this void until the TLC is fully operational.

When data on regional survey activity was provided, OPSOS indicated that it was the
most recent information collected. Regardless of the extent of regional activity, we
believe that information about it needs to be centrally collected and analyzed. We
believe SSA’s agreement to include regional survey results into the MMP and to
analyze data in the MMP Clearinghouse for service and systemic issues responds to
Recommendation 6 to coordinate regional and local customer service studies and the
central analysis of their results to permit identification of systemic issues.




SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   iii
                                                               Table of Contents

                                                                                                                        Page

INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 3


MMP Responds to Prior Concerns with SSA’s Monitoring of Customer

Service ................................................................................................................... 3


Opportunities Exist to More Effectively Use Currently Collected

Information ............................................................................................................. 4


  �    Notices to Recipients Are Not Subject to Interaction Tracking ...................... 4


  �    Comment Card Use and Analysis Are Not Centralized ................................. 5


  �    Use of Comment Card and TLC System May Be Duplicative ........................ 6


  �    Regional and Local Studies Are Not Centrally Monitored .............................. 6


Multi-Year Implementation of MMP Has Experienced Some Delays ...................... 6


Additional Opportunities Exist to Use MMP Feedback to Affect Service

Delivery Changes and Performance Goal Setting .................................................. 7


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 9


APPENDICES

Appendix A – Schedule of MMP Studies, Surveys, and Reports

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgements




SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)
                                                                         Acronyms

 CSET                Customer Service Executive Team

 DI                  Disability Insurance

 FO                  Field Office

 FY                  Fiscal Year

 MMP                 Market Measurement Program

 OCSI                Office of Customer Service Integration

 OIG                 Office of the Inspector General

 OPI                 Office of Public Inquiries

 OPSOS               Office of Public Service and Operations Support

 OQA                 Office of Quality Assurance and Performance Assessment

 PCG                 Pacific Consulting Group

 RSI                 Retirement and Survivors Insurance

 SSA                 Social Security Administration

 SSI                 Supplemental Security Income

 TLC                 Talking and Listening to Customers





SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)
                                                                    Introduction

OBJECTIVE
The objective of the audit, initiated in response to a request from the Chairman of the
Senate Special Committee on Aging, was to assess the effectiveness of the Market
Measurement Program (MMP) and identify any other efforts to improve customer
service that should be implemented.

BACKGROUND
The Social Security Administration (SSA) has been sensitive to customer service and
has historically collected information on its customers’ perception of the service it
provides. For instance, an annual customer satisfaction survey has been conducted
since 1984,1 and periodic surveys to gauge customer satisfaction with the 800-number
began in 1989. SSA’s efforts to monitor customer service were criticized as being
uncoordinated and not comprehensive. The Office of the Inspector General (OIG)
reported2 that SSA’s efforts to monitor service to the public were fragmented, and that
all customers were not included in the annual satisfaction survey. The Pacific
Consulting Group (PCG), a consultant hired by SSA to review its market research
program, recommended a more comprehensive approach to measuring customer
expectations and satisfaction. In its report, “Market Measurement to Support Planning
and Operations at the Social Security Administration,” April 1997, PCG concluded that
SSA’s market research did not: (1) adequately cover customer segments; (2) cover all
time periods, and was not timely; and (3) report comprehensive data on employers and
the general public. PCG recommended a comprehensive program of data collection
and reporting mechanisms intended to allow SSA to better plan service delivery
improvements, implement more effective execution, and allow easy reporting of
performance with the most current and comprehensive data.

SSA’s Customer Service Executive Team (CSET) recommended this approach in its
October 1997 report, and the Commissioner authorized its implementation in
February 1998. Referred to as MMP, this approach includes a variety of data collection
activities that are intended to provide SSA with the information it needs to fully
understand its total market—customers, employees, and stakeholders. Data collection
activities are tailored to each of these three segments. In addition, all customer service




1
  The General Accounting Office conducted this survey until 1987, then it was conducted by the Office of
the Inspector General, and, finally in 1997, by the Office of Quality Assurance and Performance
Assessment.
2
 “Cataloging Social Security’s Customer Service Monitoring” (A-02-96-02202), September 1997, and
“Performance Measure Review: Evaluation of the Thirteenth Annual Social Security Customer
Satisfaction Survey Data” (A-02-97-01004), January 1999.


SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)         1
monitoring activity is to be coordinated by the Office of Customer Service Integration
(OCSI). SSA believes that the success of MMP is critical to achieving its strategic
objective for customer satisfaction.

SCOPE AND METHODOLOGY
The Commissioner established CSET to develop recommendations based upon PCG’s
report. To assess the effectiveness of MMP we determined the extent to which
recommendations by CSET were implemented. We also reviewed reports by the
General Accounting Office, OIG, SSA, and PCG to document previously reported
weaknesses and concerns with SSA’s customer service monitoring activities, and
assessed the extent to which such concerns are, or will be, addressed by MMP.

We documented the status of each of the six major collection and reporting
mechanisms under MMP, and reviewed SSA organizational changes made to
implement MMP. To assess the effectiveness of MMP efforts, we reviewed focus group
and interaction tracking reports issued under the MMP customer market umbrella,
identified data collection efforts planned, and documented corrective actions taken
relating to customer service.

Further, we discussed various MMP implementation issues with officials from the OCSI,
the Office of Quality Assurance and Performance Assessment (OQA), the Office of
Communications, the Office of Public Service and Operations Support (OPSOS), the
Office of Public Inquiries (OPI), the Office of External Affairs, and the Office of Hearings
and Appeals.

The entity audited was the Office of Customer Service Integration within the Office of
the Commissioner. We conducted our work in accordance with generally accepted
government auditing standards. We performed our work in New York, New York and
Baltimore, Maryland from November 10,1999 through April 30, 2000.




SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   2
                                                Results of Review

MMP RESPONDS TO PRIOR CONCERNS WITH SSA’S MONITORING
OF CUSTOMER SERVICE
MMP is designed to address criticism that SSA’s customer service monitoring did not
address all customer segments and was uncoordinated. OIG reports and PCG
criticized SSA’s customer service monitoring as being fragmented, uncoordinated, and
untimely. For instance, PCG found that, while SSA collected significant information
from retirement and disability claimants, little was known about the expectations and
satisfaction of customers applying for Social Security cards or those already receiving
benefits. To address these shortcomings, PCG recommended a comprehensive
program of data collection, analyses, and reporting mechanisms to monitor the needs of
SSA’s different customers. These mechanisms include customers of SSA services, as
well as employees and major stakeholders, such as Congress, advocacy groups, and
employers. SSA’s CSET developed the MMP from PCG’s recommendations and the
Commissioner implemented it in February 1998. OCSI was established to coordinate
all SSA customer service monitoring activities.

A key principle of MMP is market segmentation, in which a customer market is divided
into homogeneous groups that are reached with distinct service offerings or have
distinct service needs. SSA segmented its market into 10 specific classes of customers
to obtain data previously not collected. The classes of customers are designated as
follows:

   �       Enumeration;

   �       Retirement and Survivors Insurance (RSI) initial claims;

   �       Disability Insurance (DI) initial claims;

   �       Supplemental Security Income (SSI) initial claims;

   �       Appeal decisions;

   �       RSI post-entitlement changes;

   �       DI post-entitlement changes;

   �       SSI post-entitlement changes;

   �       Earnings records; and

   �       General information.


Once market segments are identified, the MMP approach uses various data collection
and reporting mechanisms to gather information on customer service needs and
expectations and to monitor customer satisfaction. SSA employs the following five data
collection and reporting mechanisms to monitor its customer market.

           Segment Analyses - SSA conducts focus groups with small groups for each
           of the 10 customer segments to identify distinct needs, followed by more in-
           depth and extreme surveys to more completely develop the needs.



SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   3
              Interaction tracking - SSA conducts surveys twice a year to obtain customers’
              perception of service provided in a field office (FO) or hearings office, through
              the national 800-number, local FO telephone, or via the Internet.

              Special Studies - SSA collects information through focus groups or surveys
              about specific issues or new initiatives.

              Comment Cards - SSA makes them available through FOs, teleservice
              centers, and hearings offices, to obtain feedback on their service.

              Best Practices Inventory - SSA’s Intranet publicizes effective local office
              customer service initiatives.

Also, PCG recommended that SSA develop an agency-wide customer complaint
tracking system as an additional data collection and reporting mechanism. In response,
SSA is independently developing Talking and Listening to Customers (TLC), an
automated system to capture and analyze customer complaints and compliments.

OPPORTUNITIES EXIST TO MORE EFFECTIVELY USE CURRENTLY
COLLECTED INFORMATION
SSA historically collected information on its customer service. For instance, SSA
traditionally conducted an annual customer satisfaction survey3 and a semiannual
survey of 800-number caller satisfaction.4 MMP continues or expands some of these
activities and creates additional data gathering efforts. See Appendix A for a detailed
schedule of planned MMP activities. We believe there are additional opportunities to
make the MMP data collection activities more effective through greater coordination of
information collected and additional interaction tracking surveys.

Notices to Recipients Are Not Subject to Interaction Tracking

SSA annually sends over 250 million notices to recipients regarding their benefits, such
as initial eligibility, requests for information, and identification of overpayment. SSA
notices have been the subject of controversy and various initiatives. To date, feedback
about notices had been collected through the annual Customer Satisfaction Survey if
the surveyed customer had been a notice recipient. However, this approach may not
provide a representative sample of notice recipients nor be reflective of particular
notices. While PCG recommended that solicited and unsolicited mail customers be
targeted as part of the 800-number through interaction tracking, MMP does not
specifically target notice recipients with an interaction tracking survey. SSA staff
advised us that notice recipients are not specifically included in interaction tracking


3
 The Fiscal Year 1999 Survey, published in February 2000, is the final Survey. Beginning in Fiscal Year
2000, customer satisfaction will be measured through MMP interaction tracking surveys.
4
    OQA has conducted semiannual surveys of the 800-number callers since 1989.


SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)    4
because it would be difficult to identify recipients. We believe that recipients of notices
targeted for study could be identified and sampled at the time notices are generated.

Comment Card Use and Analysis Are Not Centralized

MMP includes comment cards to solicit feedback on customer service at the local level.
However, since the use of comment cards is varied, some of the feedback does not
allow for meaningful analysis, and the information is not centrally analyzed. While SSA
has historically viewed comment cards as a local mechanism to obtain information on
customer service, we believe that actions can be taken to enhance their usefulness both
nationally and locally. Further, the effect of the proposed TLC initiative upon comment
cards needs to be evaluated.

In a 1997 report,5 OIG concluded that distribution of comment cards should be more
consistent. In its April 1997 report, PCG discussed comment cards and similarly
recommended that the: (1) sampling, administration, and analysis procedures should
be enhanced and made uniform to the extent possible; and (2) data entry, analysis, and
reporting should be centralized to permit comparisons. However, neither the method of
distribution nor the extent comment cards are used is known because the use and
accounting for them is at the discretion of local FO managers.

In response to recommendations made by OIG and PCG, OPSOS issued a revised
comment card in January 1999 for use by FOs and teleservice centers. While the
revision solicits more detailed information on satisfaction with SSA service
commitments, an evaluation of comments against SSA performance measures cannot
always be made. For instance, input is solicited on the extent to which a customer
waited prior to being served—30 minutes or less, or more than 30 minutes. However,
no information is requested on whether the customer had an appointment. The
existence of an appointment is a key factor in the commitment to service—SSA pledges
that one will be served within 10 minutes if an appointment had been made, and within
30 minutes without an appointment. Collecting information on time waited, without
knowing whether the customer had an appointment, does not allow a complete
evaluation against the performance standard.

While comment cards are a useful tool for local managers to measure their
performance, the information collected also relates to how well the locations are
meeting the SSA customer pledge and related performance measures. As such, this
information can supplement national level data obtained from the various interaction
tracking surveys, provide timely data, as well as identify any systemic customer service
issues. The TLC system is intended to provide a centralized data base of customer
feedback. Until TLC is implemented, SSA will continue to track complaints received by



5
 In April 1997, OIG reported in “Social Security Administration’s Use of Comment Cards,”
(A-02-96-02203), that 29 percent of SSA offices did not use the comment card, and in those that did,
some customer populations were excluded from participation.


SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)     5
OPI6 and through comment cards. Consequently, without the central analysis of
comment card information, SSA currently lacks a mechanism to analyze customer
complaints for systemic issues.

Use of Comment Card and TLC System May Be Duplicative

Comment cards and the TLC system are designed to allow a customer to express a
complaint about service received. Use of the comment card is intended to be
independently at the customer’s initiative, while the TLC system envisions input by an
SSA employee of either customer complaints or compliments. While comment cards
and the TLC system have their unique uses, we believe there is the potential that
operation of both could confuse and cause a burden upon the customer. Further, if
customers opt to use the comment card over the TLC system, SSA will continue to lack
a centralized repository of complaints.

Regional and Local Studies Are Not Centrally Monitored

Regional or local offices may conduct customer satisfaction surveys without obtaining
approval or submitting results to OCSI. While OCSI did not know the extent to which
these activities may be undertaken, recent information collected by OPSOS disclosed
that 3 of 10 regions conduct such studies. While the MMP Clearinghouse is intended to
be the repository of such studies, only one region had posted a study to the
Clearinghouse as of April 2000. Central reporting and analysis of local studies would
ensure that systemic issues are identified and addressed.

MULTI-YEAR IMPLEMENTATION OF MMP HAS EXPERIENCED SOME
DELAYS
MMP represents a comprehensive multi-year approach to identify the needs and
satisfaction of different customer markets. While MMP encompasses many previously
conducted data collection activities, new and expanded activities will require significant
resources. Due to resource constraints and implementation impediments, certain
phases of MMP have slipped from the timeframes initially established, and full
implementation is several years away. The number and magnitude of the initiatives
under MMP will require the effective coordination of all related activities.

Implementation of segment analyses and the TLC system have been delayed (refer to
Appendix A). The first round of segment analyses, planned for each identified customer
segment approximately every 3 years, was initially scheduled for completion in Fiscal
Year (FY) 2000. As of April 2000, the first round of segment analyses are planned to
extend into FY 2001. Three of the planned eight segment analyses are scheduled for
completion in FY 2000, two in FY 2001, and three have not yet been scheduled.
Implementation of the TLC system has also slipped from the originally planned
6
 OPI centrally receives complaints. Those that relate to specific FOs are forwarded to the respective
offices, and those addressed to the Commissioner are tracked by OPI. In Fiscal Year 1999, OPI tracked
approximately 67,000 complaints.


SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)      6
timeframes. TLC field tests were scheduled for implementation in August 1998. As of
April 2000, a limited pilot of the TLC system started in September 2000. Additionally,
implementation of comment cards in hearings offices was scheduled for FY 1999, then
FY 2000, and is now planned for FY 2001.

ADDITIONAL OPPORTUNITIES EXIST TO USE MMP FEEDBACK TO
AFFECT SERVICE DELIVERY CHANGES AND PERFORMANCE GOAL
SETTING

SSA has historically responded to feedback it received through customer monitoring to
affect service delivery changes and establish related performance goals. For instance,
in response to information obtained that customers prefer conducting business via the
telephone, and that satisfaction is affected by how quickly callers access the number,
SSA has increased caller options on its 800-number telephone service, and is working
toward improving access. Similarly, the Personal Earnings and Benefit Estimate
Statement was redesigned as the Social Security Statement in response to customer
input.

Additional opportunities exist to use customer monitoring to improve service delivery.
For example, SSA annually mails over 250 million notices about benefit status, such as
initial eligibility, requests for information, and identification of overpayment, which have
been the source of much dissatisfaction. Despite this dissatisfaction, performance
goals for notice clarity have not been established. On a positive note, SSA has
established notice improvement as a key initiative and has redesigned some of its more
common notices.

The current version of SSA customer service standards was developed based upon a
survey conducted in 1994. During FY 2000, SSA completed a special study as part of
MMP to update its standards for customer service. Updating the customer service
standards will be an important task because most of the information collected through
MMP is subjective, representing how customers perceive they were served.

For example, operational data on the 800-number disclosed that approximately
92 percent of customers reach the 800-number on their first attempt. The August 1999
OQA 800-number customer interaction tracking survey reported that 54 percent of those
callers had reported calling unsuccessfully earlier in the day. SSA staff with whom we
spoke had not analyzed this apparent discrepancy and could not offer any specific
reasons for it. They attributed the difference between the two measures to the fact that
the interaction tracking survey measures customer perception as to what is a successful
call, which may not relate to the operational measure.

While the interaction tracking survey documents perceptions, it also solicits the same
quantifiable information, such as whether a call had been made earlier in the day, as
does the operational data. The difference may lie in the definition of a successful call.
SSA needs to be aware of these differences and adjust its strategic planning and
performance measures accordingly.


SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   7
Meaningful analysis and assessment of performance can be made only when the
service expected by customers is consistent with the performance goals established by
SSA. In addition, when customer perceptions differ from that indicated by operational
data, analysis is required to determine if adjustments to performance goals or actual
measurement are needed.

SSA has recently released a service vision for 2010 that will assess future customer
needs and expectations. This vision provides a high-level summary of the principles on
which SSA will base its service provisions and delivery options. This is a very important
undertaking, given the forecasted changes in both SSA’s customer universe and the
workforce. This effort will also need to be coordinated within MMP.




SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   8
                                                Conclusions and
                                               Recommendations
MMP provides a mechanism that should allow SSA to better plan, implement, and
monitor service delivery. Information received during focus groups will assist SSA to
identify the level of service that customers desire. Additionally, feedback collected
during interaction tracking will provide SSA with information on the level of customer
service satisfaction. Further, MMP will only be effective if SSA uses the information
collected to respond timely to customer expectations and the need for service
improvements.

To ensure the most effective use of customer service information collected, we
recommend that SSA:

1. 	 Target specific groups of recipients receiving SSA notices through focus groups and
     interaction tracking.

2. 	 Encourage the uniform use of customer comment cards by FOs, teleservice centers,
     and hearings offices.

3. 	 Revise the customer comment card for FOs to determine whether the customer had
     an appointment.

4. 	 Centralize and analyze customer feedback received through comment cards to
     identify any systemic service delivery issues that may need to be addressed.

5. 	 Evaluate whether, and the extent to which, the TLC system may duplicate comment
     cards.

6. 	 Coordinate regional and local customer service studies and the central analysis of
     their results to permit identification of systemic issues.

7. 	 Accelerate implementation of MMP phases to attain scheduled data collections and
     analysis and closely monitor implementation of MMP phases to limit any further
     delays.

8. 	 Conduct a more in-depth analysis of operational data and customer satisfaction
     information to ensure that customer expectations, operational data, and Agency
     performance and Vision 2010 goals are consistent.




SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   9
AGENCY COMMENTS
SSA agreed with six of our recommendations and disagreed with two. The full text of
SSA’s comments is included in Appendix B.

•	 SSA did not agree with recommendation 2 “encourage the uniform use of customer
   cards by field offices, teleservice centers, and hearings offices.” SSA believes that
   local managers should have the discretion to use comment cards in the most
   efficient and effective manner they perceive because the card is designed to inform
   managers about their local service.

•	 SSA disagreed with recommendation 4 “centralize and analyze customer feedback
   received through comment cards to identify any systemic service delivery issues that
   may need to be addressed.” SSA’s rationale is that the comment card is designed
   to monitor service at the local level, and that the various MMP data collection
   activities, as well as the TLC system, will provide centralized information to allow
   identification of service delivery issues at the national level.

SSA responded that the information on regional survey activity may be dated, but
indicated that recently completed regional surveys would be input into the MMP
Clearinghouse so that the data can be compared to other customer data. In addition,
SSA reported that an employee would be on detail to analyze the Clearinghouse data
for service and systemic issues and to monitor any regional activity.

In its response, SSA provided technical comments that were incorporated in this final
report, as appropriate.

OIG RESPONSE
We are pleased that SSA has agreed with most of our recommendations, and did, or
plans to, take action on most of them. We believe that activity conducted to date under
the MMP and in the pilot TLC sites, along with action in response to our
recommendations, will help ensure that SSA is effectively and efficiently collecting,
analyzing, and using data on customer expectation and satisfaction.

However, concerning the use of comment cards, we acknowledge the cards’ primary
function to provide feedback to managers on the quality of local service, we also believe
that the usefulness of the cards can be enhanced through uniform use. Scientific and
consistent distribution methodologies would provide for the collection of the most
accurate and efficient information for managers to use in improving service.

As we have previously reported7, we continue to believe that the comment card can be
an inexpensive and effective tool at both the local and national levels to obtain customer
satisfaction information and to identify systemic service delivery issues. Additionally,

7
    “Social Security Administration’s Use of Comment Cards”, (A-02-96-02203).


SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   10
until the TLC is fully implemented, SSA lacks a centralized customer complaint system
and mechanism to analyze all complaints. The centralized analysis of comment cards
could fill this void until the TLC is fully operational.

When data on regional survey activity was provided, OPSOS indicated that it was the
most recent information collected. Regardless of the extent of regional activity, we
believe that information about it needs to be centrally collected and analyzed. We
believe SSA’s agreement to include regional survey results into the MMP and to
analyze data in the MMP Clearinghouse for service and systemic issues responds to
our recommendation (Recommendation 6) to coordinate regional and local customer
service studies and the central analysis of their results to permit identification of
systemic issues.




SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)   11
Appendices

                                                                                   Appendix A

   Schedule of the Market Measurement
   Program’s Studies, Surveys, and Reports

Method of Data                                                  Reports               Reports Planned
Collection              Targeted Customer                       Issued                to Issue
Segment Analysis:       Disability post-entitlement             February 2000         February 2001
All conducted on a
3-year cycle            Appeals                                                       June 2000

                        Disability initial claims                                     July 2000

                        Nondisability post-entitlement                                February 2001

                        Nondisability initial claims                                  April 2001

                        Enumeration                                                   To be determined

                        Earnings                                                      To be determined

                        General inquiries                                             To be determined
Interaction             800-number callers conducted            July 1999 and         May 2000 and
Tracking:               in February and August                  December 1999         December 2000;
All conducted                                                                         May 2001
Semiannually
                        Field office callers conducted in       March 2000            March 2001
                        November and May

                        Field office and hearings office        January 2000          May 2000 and
                        visitors conducted in January                                 December 2000;
                        and July                                                      May 2001

                        Social Security Administration          June 1999             May 2000 and
                        website visitors conducted in                                 November 2000
                        January and July                                              May 2001




   SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020) A-1

Method of Data                                                  Reports               Reports Planned
Collection              Targeted Customer                       Issued                to Issue
Special Studies:        Social Security statement               November 1998
Conducted on an
ad-hoc basis            Field offices with automated            December 1998
                        attendant/voice mail

                        Immediate claims taking                 July 1999

                        Full process model pilot                August 1999

                        Customer service standards              January 2000

                        Kiosk enumeration                       March 2000

                        800-number automated                    March 2000
                        services

                        Disability claims manager                                     December 2000

                        Notice clarity                                                February 2001




   SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020) A-2
                                                                                 Appendix B


Agency Comments





SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020)
                                                               ,
                                                               .r SEC&
                                                               (I       :-t,
                                                             ~'"'~?
                                                              ?lPUSA'\\:
                                                             "\ ..lvI5TV.-.
                                                                       ~.
                                                                   1111111


                                                 SOCIAL          SECURITY


MEMORANDUM


           March     5,     2001
                                                                                 Refer To: SlJ-3


To:        JamesG. Ruse, Jr.
           Inspector General

           William        A. Halter   101!4"'H
           Acting Commissioner          of Social Security

Subject:   Office of the Inspector General (OIG) Draft Report, "Review of the Social Security
           Administration's Organizational Capacity to Monitor and Plan for Customer Service Initiatives'
           (A-O2-00-20020)-IN~ORMA TION


           We appreciatethe GIG's efforts in conducting this review. Our comments on the specific
           recommendations are attached. Staff questionsmay be referred to Dan Sweeneyon
           extension 5-1957.

           Attachment
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
"REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S ORGANIZATIONAL
CAPACITY TO MONITOR AND PLAN FOR CUSTOMER SERVICE INITIATIVES”
(A-02-00-20020)


Recommendation 1


Target specific groups of recipients receiving Social Security

Administration (SSA) notices through focus groups and interaction

tracking.

SSA Comment


Because SSA has so many different types of notices covering so

many issues, we do not believe an interaction tracking type of

methodology can provide the specific and substantive information

SSA needs to make notice improvements. However, consistent with

the thrust of OIG’s recommendation, in fiscal year (FY) 2001, our

Office of Quality Assurance and Performance Assessment (OQA) will

undertake a notice study that will gather information from

recipients of SSA’s most problematic notices. This will

establish a baseline so notice improvements can be assessed via

subsequent surveys.

The OIG draft report makes the statement that the Pacific

Consulting Group (PCG) recommended to SSA that solicited and

unsolicited mail customers be targeted through interaction

tracking, implying PCG recommended that SSA target specific

groups receiving notices. This is not correct. PCG recommended

that SSA gather information about mail interactions from the 800

Number Caller Survey. That is, the survey would ask 800 number

callers if they had received any notices from SSA, and if so,

what did they think of the notices in general. PCG’s methodology

was not designed to provide the specificity on notices or from

groups of notice recipients that OIG envisions.


Recommendation 2


Encourage the uniform use of customer comment cards by field

offices (FO), teleservice centers, and hearings offices.



All offices have received instructions from Headquarters

encouraging the use of the comment cards and suggesting methods

for use. Because the comment card has been designed to inform

local managers about their local service, managers have the

discretion to use the cards in the manner most efficient and

effective for them.





SSA’s Organizational Capacity to Monitor and Plan for Customer Service Initiatives (A-02-00-20020) B-1
Recommendation 3


Revise the customer comment card for FOs to determine whether the

customer had an appointment.


Comment


We agree that knowing whether the customer had an appointment

would be beneficial and will revise the FO comment card to

include appointment information once the current stock runs out.


Recommendation 4


Centralize and analyze customer feedback received through comment

cards to identify any systemic service delivery issues that may

need to be addressed.

SSA Comment


We disagree. We continue to believe that the Market Measurement

Program’s (MMP) interaction tracking, customer segment analysis

and special study methodologies as well as the Talking and

Listening to Customers (TLC) system provide the Agency with

centralized information that allows us to identify service

delivery issues at the national level. The purpose of the

comment cards is to monitor service at the local level.


Recommendation 5


Evaluate whether, and the extent to which, the TLC system may

duplicate comment cards.


SSA Comment

We agree and have in place a plan that will address this

recommendation. We have hired a contractor, KPMG, to assist us

with, among other things, evaluating the operation of the TLC

pilot. Specifically, in the case of TLC forms, KPMG is looking

at such issues as:


•	 Potential customer confusion between the TLC form and the
   comment card. We are testing use of both the customer comment
   card and TLC forms together in half of the pilot sites, while
   testing the TLC form alone in the other half.
• Overlap of information on these two forms.
• Customer preference for one form over the other.
• Cost effectiveness.
• Unique uses, costs and benefits of each form.
At the end of the pilot, KPMG will submit a report outlining its
observations, findings and recommendations on this issue.

Recommendation 6


Coordinate regional and local customer service studies and the

central analysis of their results to permit identification of

systemic issues.


Comment


It appears that your information about survey activities in the

regions may be dated. At this point, Kansas City is the only

region that undertakes a formal customer satisfaction survey.

The other regions that had been gathering formal customer

satisfaction information in the past stopped due to lack of

resources. We are inputting Kansas City’s latest customer survey

report into the centralized repository of direct input, the MMP

Clearinghouse, so findings can be used and compared with other

customer data. In addition, the Office of Customer Service

Integration has brought in a field employee on detail to more

closely focus on analyzing the MMP data in the Clearinghouse for

service and systemic issues at the national level. This function

includes keeping in touch with the regions to monitor any

activities related to customer service studies and analyzing any

regional customer data as it comes in.

Recommendation 7


Accelerate implementation of MMP phases to attain scheduled data

collections and analysis and closely monitor implementation of

MMP phases to limit any further delays.


SSA Comment

We acknowledge that delays in implementation of the customer

segment analyses have taken place. Because information about

needs and expectations of all customer groups is critical to our

Vision 2010 gap analysis and project implementation (where we

need to examine a full body of data from all customer groups),

accelerated implementation is desirable. Therefore, we will find

ways to accelerate our data collection and analysis capacity.


In reference to TLC, although we would like to have had an

earlier start on the pilot, we chose and carried out a design and

development plan that deferred implementation in favor of

thorough and comprehensive preparation for the pilot. We believe

the payoff was greater participation and acceptance by hundreds

of employees and an ultimately smoother launch of the pilot. The

TLC is currently being piloted in 65 sites. Based on pilot

results which will identify the most cost-effective way of

collecting these data, we will begin national implementation.

Recommendation 8


Conduct a more in-depth analysis of operational data and customer

satisfaction information to ensure that customer expectations,

operational data, and Agency performance and Vision 2010 goals

are consistent.


Comment


We fully understand the importance of integrating customer

feedback, performance goals, operational performance and

strategic planning. To this end, as we pursue our 2010 vision,

we will use MMP data to “refresh” the vision and ensure that the

vision remains consistent with changing customer needs and

expectations.
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Frederick C. Nordhoff, Director, Financial Management and Performance
     Monitoring Audit Division (410) 966-6676

   Timothy Nee, Deputy Director (212) 264-5295

Acknowledgments
In addition to those named above:

   John P. Harrison, Senior Auditor-in-Charge

   Annette DeRito, Program Analyst

For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 965-5998. Refer to Common Identification Number
A-02-00-20020.
                          DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders                                                         25
Income Maintenance Branch, Office of Management and Budget                       1
Chairman, Committee on Ways and Means                                            1
Ranking Minority Member, Committee on Ways and Means                             1
Chief of Staff, Committee on Ways and Means                                      1
Chairman, Subcommittee on Social Security                                        2
Ranking Minority Member, Subcommittee on Social Security                         1
Majority Staff Director, Subcommittee on Social Security                         2
Minority Staff Director, Subcommittee on Social Security                         2
Chairman, Subcommittee on Human Resources                                        1
Ranking Minority Member, Subcommittee on Human Resources                         1
Chairman, Committee on Budget, House of Representatives                          1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives 1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
